wr

simme  (C1QCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.
ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE
OF THE ESTATE OF KRISTEN BIEL,
Respondent.

 

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
OF CLERGY AND. LAITY UNITED FOR ECONOMIC: JUSTICE AND BET TZEDEK IN
SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 7025 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1 Ith day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Ly»
ferrmeeee| Acne 0. Loa” Qutb. Ohl
Notary Public

My Comm. Exp. September 5, 2023

 

Affiant 39622
